CERTIFICATE OF COMPLIANCE
No.

ELSIE MARINO, CONSUMER,
Petitioner(s),
v.

JEFFREY NADEL, DOING BUSINESS AS
LAW OFFICES OF JEFFREY NADEL;
SCOTT E. NADEL; DANIEL MENCHEL;
MICHAEL MCKEOWN; CALIBER HOME LOANS, INC.;
BANK OF NEW YORK MELLON, AS TRUSTEE FOR
CIT MORTGAGE LOAN TRUST 2007-1,
Respondent(s)

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 6089 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October

7 , 2019
Elsie Marino, Petitioner

